SEC.gov |  Survey of Personnel Management
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Survey of Personnel Management
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document. The printed
document may contain agency comments, charts, photographs, appendices,
footnotes and page numbers which may not be reproduced in this electronic
version. If you require a printed version of this document contact the
United States Securities and Exchange Commission, Office of Inspector General,
Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C. 20549 or call (202)
942-4460.
Survey of Personnel Management
Audit Report No. 222June 15, 1995
INDEX
SUMMARY
OBJECTIVES AND SCOPE
BACKGROUND
SURVEY RESULTS
Training Regulations
Executive and Management Development
Grievance Processing
APPENDIX
SUMMARY
We surveyed personnel management by the Office of Administrative and
Personnel Management (OAPM). Our recommendations include: issuing updated
regulations for the training program; increasing coverage of government
regulations in the executive development program; and revising time frames
for grievance processing.
OAPM concurs with our recommendations. Its comments are attached.
OBJECTIVES AND SCOPE
The objectives were to gather information on personnel management to
assist in audit planning, and to follow up on prior audit work (Audit No.
167). We interviewed staff in OAPM, the Comptroller's Office, the Office
of Personnel Management (OPM), and the regions; reviewed relevant documentation;
and researched applicable laws and regulations. The survey was conducted
between November 1994 and May 1995, in accordance with generally accepted
government auditing standards.
BACKGROUND
Personnel management functions under 5 U.S.C. include recruitment and
hiring, position classification, training, and employee relations and benefits.
In 1992, the Office of Human Resources Management was combined with the
Office of Administrative Services to form the Office of Administrative
and Personnel Management. After the merger, staffing was combined with
classification, and employee relations was combined with training.
The Classification and Staffing Branch classifies positions, monitors
position management, and recruits and hires employees. Employee Relations
and Development is responsible for employee appraisal and discipline, ethics
regulations, and training.
The Processing and Benefits Branch processes personnel actions and maintains
Official Personnel Folders (OPFs), conduct folders, and employee medical
files. This branch also implements employee benefit programs such as health
and life insurance, Thrift Savings Plan, injury compensation, unemployment
compensation, and retirement.
The personnel function is being reinvented under the Administration's
National Performance Review (NPR). For example, the Federal Personnel Manual
has been eliminated to give agencies more flexibility in their personnel
programs. Also, OAPM has been designated and registered with the NPR as
a re-invention lab.
SURVEY RESULTS
We found that OAPM has made a number of improvements in its service
to the Commission. It has issued new policy and procedures for alternate
work schedules; drafted revised merit promotion procedures; implemented
a telephone line with recorded information; established an Affirmative
Recruitment Task Force to increase recruitment among under-represented
minorities; and is implementing a new automated personnel system, the Personnel
Resource System. Other improvements have been made to the Upward Mobility
Program; the executive, management and supervisory development program;
the Thrift Savings Plan; and the annual health benefits fair (recognized
as one of the ten best fairs in the area).
We identified several possible additional enhancements, as explained
below. These findings generally relate to our follow-up on prior audit
work (No. 167).
Training regulations
According to OAPM, it has revised the training program to make it more
effective. OAPM designates certain mandatory training (e.g., sexual harassment,
HIV). In addition to this training, offices and divisions now receive a
training budget. The size of an office's budget is based on its prior training
activity and associated funding. Finally, OAPM reserves certain funds for
unexpected needs.
The training regulations have not yet been updated to reflect the new
procedures. The updated regulations should also provide for periodic evaluations
of the results and effects of training, as required by 5 CFR 410.304.
Recommendation A
OAPM should update the Commission's training policy in the POPPS manual
(section 410a).
Executive and Management
Development
OAPM issued an executive and management development policy in February
1994. Under the policy, executives and managers are to be provided the
training they need to be effective. The training includes supervision,
conflict resolution, and sexual harassment, among other topics. However,
it does not separately cover government regulations, an essential topic
for executives and managers.
Recommendation B
OAPM should increase coverage of government regulations (e.g., procurement,
budgeting, and personnel) in its executive and management development training
programs.
Grievance Processing
We reviewed eight grievance files, representing all grievances from
fiscal year 1994 and three out of seven from 1993. In seven cases, processing
time frames in POPPS were exceeded. Delays occurred most often between
the filing of a formal grievance and selection of a deciding official,
and from selection to the final decision. See the Appendix.
The large discrepancies between the established and actual time frames
could undermine employee confidence in the grievance system. OAPM believes
that the current time frames are not realistic in some cases.
Under 5 CFR 771.204, agencies are required to periodically evaluate
their administrative grievance system to ensure it is in compliance with
regulations.
Recommendation C
OAPM should review the grievance time frames, and revise them, if appropriate.
Recommendation D
OAPM should periodically evaluate the grievance system, including whether
the time frames set by OAPM are being met by its staff.
Appendix
Grievance Processing Time Frames
File Comments
#133 days from event to informal grievance.
(15 days required per POPPS 6-771.A)
#211 days from decision on informal
grievance to filing formal grievance.
(5 days required per POPPS
6-771.A)
44 days from appointment of deciding
official to final decision.
(20 days required per POPPS 6-771.A)
#3 8 days from filing of formal
grievance to
selection of deciding official.
(5 days required per POPPS
6-771.A)
27 days from appointment of deciding
official to final decision.
(20 days required per POPPS
6-771.A)
#410 days from decision on informal grievance
to filing of formal grievance.
(5 days required per POPPS
6-771.A)
#512 days from filing of formal
grievance to
selection of deciding official.
(5 days required per POPPS
6-771.A)
42 days from appointment of deciding official to final decision.
(20 days required per POPPS
6-771.A)
#610 days from filing formal grievance to
selection of deciding official.
(5 days required per POPPS
6-771.A)
#7 31 days from filing formal grievance to
selection of deciding official.
(5 days required per POPPS
6-771.A)
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us